BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition for Respondents Federal
Home Loan Mortgage Corporation and M&T Bank in
20-908, SFR Investments Pool 1, LLC v. M&T Bank;
Federal Home Loan Mortgage Corporation, was sent
via Three Day Service to the U.S. Supreme Court, and
Three Day and e-mail service to the following parties
listed below, this 22nd day of March 2021:
Jacqueline Ann Gilbert
Kim Gilbert Ebron
7625 Dean Martin Drive, Suite 110
Las Vegas, NV 89139
(702) 400-4130
j ackie@kgelegal.com
Counsel for Petitioner
Matthew Allen Fitzgerald
Counsel of Record
McGuire Woods LLP
800 East Canal Street
Richmond, VA 23219
(804) 775-4716
mfitzgereald@mcguirewoods.com
Counsel for Federal Home Loan Mortgage Corporation

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Nathan F. Smith
Malcolm Cisneros
2112 Business Center Drive
Irvine, CA 92612
(949) 252-9400

Counsel for M&T Bank

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

.JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
1ebri1;iry 14, 20,!3

